AUDIT OF AN SBA GUARANTEED LOAN TO 


     JUST A CUT LAWN CARE, INC.


          Brunswick, Georgia 


       Audit Report Number: 7-06 


           December 28, 2006 

                    U.S. SMALL BUSINESS ADMINISTRATION 

                        OFFICE OF INSPECTOR GENERAL 

                            WASHINGTON, D.C. 20416 



                                                                 AUDIT REPORT
                                                          Issue Date: December 28, 2006
                                                          Report Number: 7-06

To:     	   Janet A. Tasker
            Acting Associate Administrator for Financial Assistance

            /s/ original signed
From:       Debra S. Ritt
            Assistant Inspector General for Auditing

Subject:	 Audit of an SBA Guaranteed Loan to Just A Cut Lawn Care, Inc.

        The purpose of this memorandum is to notify you of a $28,660 improper payment
that should be recovered. During our ongoing audit of the guarantee purchase process at
the National Guaranty Purchase Center, we identified a problematic loan [Exemtion
2] made by First Georgia Bank (lender) to Just A Cut Lawn Care, Inc. (borrower). First
Georgia Bank was subsequently acquired by United Community Bank and therefore,
United Community Bank became responsible for servicing and liquidating SBA
guaranteed loans approved by the lender. The audit was conducted during May 2006, in
Chicago, Illinois, in accordance with Government Auditing Standards prescribed by the
Comptroller General of the United States.

        The Small Business Administration (SBA) is authorized under Section 7(a) of the
Small Business Act to provide financial assistance to small businesses in the form of
government-guaranteed loans. SBA loans are made by participating lenders under an
agreement (SBA Form 750) to originate, service and liquidate loans in accordance with
SBA regulations, policies, and procedures. If a lender fails to comply materially with
SBA regulations, the loan agreement, or does not make, close, service, or liquidate a loan
in a prudent manner, SBA has exclusive discretion to release itself from liability, in
whole, or in part, on the loan guarantee.

        On August 28, 2001, SBA approved a loan for $66,395 to provide a borrower
with working capital and to refinance business-related credit card debt and term loans.
The loan was processed under Low Doc procedures and therefore, SBA was responsible
for determining the eligibility and credit risk of the borrower. The loan was fully
disbursed on September 11, 2001, and the borrower defaulted on August 11, 2003. A
purchase review was completed by the National Guaranty Purchase Center on April 26,
2005, and no material deficiencies were identified. SBA purchased the guarantee on May
3, 2005 for $42,172.
The Lender Did Not Ensure Loan Proceeds Were Used as Required by Loan Terms

       The lender did not verify that credit card debt refinanced with loan proceeds was
business-related as required by the loan authorization. This deficiency was not detected
during the guarantee purchase process and, as a result, SBA made a $28,660 improper
payment when it honored the guarantee.

        The loan authorization required the lender to document that the borrower used the
loan proceeds for the purposes provided in the authorization. The loan authorization
specifically required the lender to verify business-related debt on five of the credit cards
being refinanced with loan proceeds. It also required the lender to complete and sign
SBA Form 1050, Settlement Sheet, for each disbursement and retain the forms in its loan
file. Upon signing the 1050s, the lender certified that the loan proceeds were used in
accordance with the loan authorization.

         The lender disbursed $28,869 to pay off five credit cards for which it was
required to verify that the debt was business-related. Only $209 of the debt, consisting of
purchases from Sears for a work belt, a tape holder, a tool bag, a padlock, and power tool
bits, appeared to be business-related. The remaining $28,660 of debt consisted of (1)
unsupported cash advances totaling $10,176, (2) charges that appeared to be personal in
nature, 1 such as for bed and bath linens, an appliance repair, shoes, a bag, a log carrier,
and a ride-on-vehicle, (3) unsupported credit card balances due to gaps in the provided
statements, and (4) fees and penalties. There was no assurance that any of these charges
were business-related and as a result, recovery of $28,660 from the lender is warranted.

Recommendation

        We recommend that the Acting Associate Administrator for Financial Assistance:

1. Seek recovery of $28,660 from United Community Bank on the guarantee paid.

Lender Comments

         The lender who assumed the loan provided written comments on a draft of this
report. United Community Bank stated that the lender relied on support and
authorization from the Coastal Area District Development Authority (CADDA) to verify
that the credit card debt refinanced with loan proceeds was business-related as required
by the loan authorization. United Community Bank claimed that an August 15, 2001,
letter from CADDA, which was attached to its comments, indicated that the credit card
statements and receipts were verified and determined to be business-related.




1
 For example, purchases were from the Tackle Shack, Wal-Mart, Golden Isles Marina, Island Rock Café,
Atlantic Marine, Tommy Hilfiger, Dexter Shoe, First Coast Golf, Bonaventure Golf, Staples, Spanky’s,
Cellular One, The Stadium Club, JC Penney, and Sears.

                                                  2

       With regard to the collateral issue presented in our draft audit report, United
Community Bank claimed that the borrower’s bankruptcy filing prior to loan default
prevented the lender from performing a timely site visit until permission was granted by
the Bankruptcy Court. The lender’s comments are included as Appendix I.

Office of Inspector General Response

        SBA’s loan authorization was provided to First Georgia Bank which was
subsequently acquired by United Community Bank. The loan authorization specifically
required First Georgia Bank to verify that certain debt being refinanced with loan
proceeds was business-related. The authorization did not include a provision for the
lender to rely on an outside party for the required verification. Furthermore, the August
15, 2001 letter from CADDA does not state that the credit card statements and receipts
were verified and determined to be business-related as claimed by United Community
Bank. As a result, we continue to support our position with regard to this matter.

        With regard to the bankruptcy issue, we believe the lender could have petitioned
the court for permission to make a site visit shortly after the August 4, 2003, bankruptcy
filing and certainly well before April 2004.

Agency Comments

       The Agency provided written comments on a draft of this report. SBA
Management agreed that the lender should be required to repay the $28,660 of loan
proceeds disbursed to repay credit card debt that the originating lender did not confirm to
be business debt.

        SBA Management also agreed that the lender should have petitioned the court to
permit it to make the site visit. However, SBA stated that the lender’s deficiency is not
material because the loan collateral is primarily lawn mowing equipment and the
realizable value for used equipment collateral is minimal. As a result, SBA Management
would not be able to recover the recommended $11,622 for this deficiency. SBA
Management’s comments are included as Appendix II.

Office of Inspector General Response

      We agree that the realizable value for the used equipment collateral would have
been minimal, and therefore, have modified our recommendation.

Actions Required

        The finding in this report is the conclusion of the Office of Inspector General’s
Auditing Division based on testing of SBA operations. The finding and recommendation
are subject to review, management decision, and corrective action in accordance with
existing Agency procedures for follow-up and resolution. Please provide your proposed
management decision for our recommendation within 30 days of the date of this report on

                                             3

the attached SBA Form 1824, “Recommendation Action Sheet,” and show your proposed
corrective action and target date for completion.

        We appreciate the courtesies and cooperation of the Office of Financial
Assistance representatives during this audit. If you have any questions concerning this
report, please call me at (202) 205-[Exemption 2] or Robert Hultberg, the Program
Director, at (202) 205-[Exemption 2].




                                           4

                                                                                            Appendix I 

                                                                                            Page 1 of 2 





              United                               Chad Gasaway
                                                                            United Community Bank
                                                                            POBox 398
                                                                            Blairsvine, Georgia 30514

              Community Bank                   0
                                                   Special Assets           706-745-2151 Ext. [Exemption
                                                                            Fax: 706-745-2019
                                                                                                           2]




December 6, 2006


Terry Settle
SBA Office Oflnspector General
1145 Hemdon Parkway, Suite 900
Herndon, VA 20170

RE:    Draft Audit Report On An SBA Guaranteed Loan To Just A Cut Lawn Care, Tnc.


Dear Terry:

The following is a response to the draft audit report that was dated November 7, 2006 and issued
by Debra Ritt, Assistant Inspector General for Auditing. The recommendation of the audit
resulted in a $40,322 improper payment based on two findings. (1) The lender did not ensure
loan proceeds were used as required by Joan terms and (2) The lender did not secure the
collateral. The following outlines our disagreement to the recommendation of the audit.

The lender relied on support and authorization from the Coastal Area District Development
Authority (CADDA) to verify that the credit card debt refinanced with the Joan proceeds was
business related as required by the loan authorization. Please see the attached letter dated August
15, 2001. Teena Hicks at CADDA has indicated that the credit card statements and receipts
included in the refmance of this loan were verified and determined to be business related by
CADDA.

The borrower filed Chapter 7 bankruptcy on August 4, 2003 and the Joan defaulted on August
11 , 2003. The lender did not perfonn a site visit within 60 days after an unremedied default or
within 15 days of an adverse event due to the fact that the borrower filed bankruptcy prior to the
default date. As a result, the lender was not able to perfonn the site visit until petmission was
granted by the Bankruptcy Court.

Based on the information provided in the response above, United Community Bank believes that
the payment should be honored.

Sincerely,

[Exemption 6]
Chad Gasaway
Special Assets
                  Appendix I 

                  Page 2 of 2 





     [Exempt 6]


[Exempt 6]
                Appendix II 





[Exemption 6]
                                                                                                              Appendix III 



                                     AUDIT REPORT DISTRIBUTION 



Recipient                                                                                                   No. of Copies

Associate Deputy Administrator for Capital Access ................................................ 1 


General Counsel ........................................................................................................ 3 


Deputy General Counsel ........................................................................................... 1 


United States Government Accountability Office .................................................... 1 


Office of the Chief Financial Officer 

Attention: Jeff Brown............................................................................................... 1 

